HHS/OIG, Audit -"Identification and Allocation of Indirect Costs at the Centers for Disease Control and Prevention,"(A-04-02-08001)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Identification and Allocation of Indirect Costs at the Centers for Disease Control and Prevention," (A-04-02-08001)
December 31, 2003
Complete
Text of Report is available in PDF format (395 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The final report points out that the Centers for Disease Control and Prevention (CDC) had not implemented a system to
allocate its organization-wide indirect costs on a reasonable and consistent basis, as required by Federal accounting standards.  Instead,
CDC relied on allocation methodologies that resulted in overcharges and undercharges affecting almost all programs and
activities.  With the assistance of a consulting firm, CDC made some modifications to its allocation methods in 1998
and was able to reduce some of the overcharges and undercharges.  Agency projections showed, however, that HIV/AIDS,
one of CDC's largest programs, was charged about $11.9 million for excessive indirect costs during FYs 2000 and 2001.  Implementation
of the indirect costing system was delayed because CDC, viewing the system developed by the consulting firm in 1999 as
overly complex and difficult to maintain, contracted with a public accounting firm to evaluate and simplify the proposed
system.  CDC first implemented the simplified system in FY 2002, and, after evaluating the implementation and making
some minor modifications, fully implemented it in FY 2003.  We believe the new system represents a significant improvement
by allocating indirect costs more equitably and providing accurate information on the full costs of CDC's program and activities.  We
recommended that CDC evaluate the effects of overcharging indirect costs to HIV/AIDS and its other programs to assure a
correct accounting of program activities.  In addition, because program funding levels and requirements may change
over time, we also recommended that CDC periodically evaluate indirect costing methods to ensure a continued equitable
allocation of such costs.  CDC concurred with our recommendations.